Case No. 21-235

In The

Supreme Court of the United States
───────♦───────
GARY HEIDEL, ET AL.,
v.

Petitioners,

SHERIFF ANTHONY MAZZOLA, ET AL.,
Respondents.
───────♦───────
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

───────♦───────
BRIEF IN OPPOSITION
───────♦───────
JEFFREY L. DRISCOLL
Counsel of Record
WILLIAMS, TURNER & HOLMES, P.C.
744 Horizon Court, Suite 115
Grand Junction, CO 81506
(970) 242-6262
jdriscoll@wth-law.com
Counsel for Respondents

i
QUESTION PRESENTED FOR REVIEW
The Estate claimed that the Sheriff, in his
official capacity. was deliberately indifferent to
Catherine
Rowell’s
serious
medical
needs
(substantial risk of suicide) in violation of the
Fourteenth Amendment.
The issue raised on appeal was whether the
district court erred in dismissing the Estate’s
municipal liability claim based on the Estate’s failure
to establish the elements of violation of a
constitutional right and of state of mind. The Tenth
Circuit affirmed dismissal on both bases.
The question presented is:
Whether certiorari should be granted to
consider adopting the Kingsley v. Hendrickson, 135 S.
Ct. 2466 (June 22, 2015) Fourteenth Amendment
excessive force objective standard as the standard for
Fourteenth Amendment deliberate indifference to
serious medical needs claims, when this issue was
recently before the Court in another petition and
denied, and the resolution of which will not alter the
judgment.
Whether certiorari should be granted on the
state of mind element of municipal liability when the
only issue raised is that the Tenth Circuit erred in
applying well-settled legal authority to the particular
facts of this case, and petitioner has not
demonstrated that any special and important reasons
required to trigger this Court’s review are implicated.

ii
Rule 14.1.(b)(i) Statement
For purposes of the scope of the appeal to the
Tenth Circuit Court of Appeals (No. 20-1067) and
this petition:
The Plaintiff-Petitioner is Michael Rowell, as
the personal representative of the Estate of
Catherine Rowell (“Estate”).
The Defendant-Respondent is Sheriff Anthony
Mazzola, in his official capacity (“Sheriff”).

iii
TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW .................. i
TABLE OF AUTHORITIES ........................................ v
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE .................................... 2
A. Course Of Proceedings Below ........................... 2
B. Factual Background ......................................... 3
REASONS FOR DENYING THE PETITION .......... 11
I. THERE ARE NO SPECIAL AND IMPORTANT
REASONS TO CONSIDER THIS PETITION .... 12
A. The Petition Is Duplicative Of A
Recently Denied Petition On The
Exact Same Issue And Does Not
Present An Independent Basis
Justifying This Court’s Review ...................... 12
B. Similar To The Strain Petition Being
Denied, There Is No Special And
Important Reason To Consider
This Petition.................................................... 14
1) The State Of Mind Cases Cited By The
Estate Do Not Establish A CertiorariWorthy Controversy .................................. 17

iv
II. THE STANDARED FOR FOURTEENTH
AMENDMENT DELIBERATE INDIFFERENCE
TO AN INMATE’S MEDICAL CARE IS A
SUBJECTIVE TEST, NOT OBJECTIVE ........... 21
III. THE ORDER BELOW WAS CORRECT .......... 22
A. The Sheriff Was Not Deliberately
Indifferent To An Almost Inevitable
Constitutional Injury ...................................... 23
B. There Was No Constitutional Right
To Suicide Screening Or Prevention
Protocols .......................................................... 28
C. Ms. Rowell Did Not Suffer A
Constitutional Injury ...................................... 29
1) Defendants Were Not Deliberately
Indifferent To Ms. Rowell ......................... 29
2) There Was No Historical Or Current
Evidence To Support A Finding Of
Deliberate Indifference.............................. 30
D. Even Under The Kingsley Objective
Standard, There Was No Constitutional
Violation .......................................................... 34
E. In A Jail Suicide Case, Knowledge Must
Be Based On A Specific Individual, Not
Knowledge Generally...................................... 35
CONCLUSION .......................................................... 38

v
TABLE OF AUTHORITIES
Cases
Bame v. Iron County,
566 Fed. Appx. 731 (10th Cir. 2014).............. 25, 26
Barney v. Pulsipher,
143 F.3d 1299 (10th Cir. 1998) ........... 17, 18, 19, 23
Barrie v. Grand County,
19 F.3d 862 (10th Cir. 1997) ................................. 21
Bd. of County Comm’rs of Bryan County, Okl. v.
Brown, 520 U.S. 397 (1997) .............................. 23
Brady v. Maryland,
373 U.S. 83 (1963) ................................................ 17
City of Los Angeles v. Heller,
475 U.S. 796 (1986) .............................................. 29
Connick v. Thompson,
563 U.S. 51 (2011) .................................... 17, 18, 24
Cox v. Glanz,
800 F.3d 1231 (10th Cir. 2015) ..................... passim
Ernst v. Creek Cty. Pub. Facilities Auth.,
697 Fed. Appx. 931 (10th Cir. 2017) ..................... 26
Estate of Hocker v. Walsh,
22 F.3d 995 (10th Cir. 1994) ........................... 21, 30

vi
Farmer v. Brennan,
511 U.S. 825 (1994) ........................ 1, 21, 22, 25, 29
Gaston v. Ploeger,
229 Fed. Appx. 702 (10th Cir. 2007) ..................... 30
Hinton v. City of Elwood,
997 F.2d 774 (10th Cir. 1993) ............................... 29
J.K.J. v. Polk,
960 F.3d 367 (7th Cir. 2020) ................................. 19
Kingsley v. Hendrickson,
135 S. Ct. 2466 (2015) .................................. passim
Lawrence v. Chater,
516 U.S. 163 (1996) .............................................. 20
McBride v. Toledo Terminal R. Co.,
354 U.S. 517 (1957) .............................................. 20
Monell v. Dep’t of Social Services,
436 U.S. 658 (1978) .............................................. 23
Olsen v. Layton Hills Mall,
312 F.3d 1304 (10th Cir. 2002) ............................. 20
Perry v. City of St. Louis,
399 F. Supp. 3d 863 (E.D. Mo. 2019) ................... 19
Sealock v. Colorado,
218 F.3d 1205 (10th Cir. 2000) ............................. 21

vii
Schneider v. City of Grand Junction Police Dep’t,
717 F.3d 760 (10th Cir. 2013) ...... 14, 17, 18, 23, 24
Taylor v. Barkes,
135 S. Ct. 2042 (2015) .......................................... 28
Verdecia v. Adams,
327 F.3d 1171 (10th Cir. 2003) ............................ 28
Watt v. Alaska,
451 U.S. 259 (1981) .............................................. 14
Woodward v. Corr. Med. Servs. of Ill., Inc.,
368 F.3d 917 (7th Cir. 2004) ................................. 19
Rules
U.S. Sup. Ct. Rule 10................................................. 15
Statutes
C.R.S. § 13-1-111(1) ................................................... 15
Constitution
Colorado Constitution, Art. VI, Section 1 ................. 15
Certiorari Petition
Strain v. Regalado,
No. 20-1562, May 7, 2021 .............. 1, 12, 13, 14, 22

1
INTRODUCTION
This case is a particularly poor vehicle for this
Court’s review.
Utilizing the subjective deliberative indifference test set forth in Farmer v. Brennan, 511 U.S.
825 (1994), both the district court and Tenth Circuit
Court of Appeals concluded that petitioner failed to
satisfy the constitutional violation element of the
municipal liability claim.
The propriety of adopting the Kingsley
excessive force objective standard as the deliberate
indifference to serious medical needs standard was
recently before this Court in Strain v. Regalado, No.
20-1562, dated May 7, 2021, and denied October 4,
2021 (“Strain petition”). This petition brings nothing
special or important to the discussion which
warrants consideration in lieu of the Strain petition.
In addition, no decision this Court issues will alter
the result in this case.
The district court also dismissed the municipal
liability claim on the basis that the Estate failed to
prove the state of mind element as well. The Tenth
Circuit applied well-settled legal authority in
specifically affirming dismissal based on the state of
mind element. Petitioner’s quibble is that the factual
determination was error, which is not a proper basis
for this Court’s jurisdiction, and petitioner has not
otherwise identified any special and important
reason that would justify the Court’s consideration of
this issue.

2
Having failed to identify an issue that
warrants consideration, the petition for writ of
certiorari should be denied.
STATEMENT OF THE CASE
A.

Course Of Proceedings Below.

Plaintiff-Appellant, Michael Rowell, Personal
Representative of the Estate of Catherine Rowell
(“Estate”), sued Sheriff Anthony Mazzola, in his
official capacity (“Sheriff”), for violation of Catherine
Rowell’s Fourteenth Amendment rights based on the
claim that the Sheriff was deliberately indifferent to
Catherine Rowell’s serious medical need of
substantial risk of suicide.
In its summary judgment Order, the district
court concluded there was no municipal liability
because there was no underlying constitutional
violation committed by any of the Defendants,
individually or collectively. The district court further
concluded that, even if any of the individual
Defendants had violated Ms. Rowell’s constitutional
rights, the Sheriff was not aware that the deficiencies
claimed by the Estate were substantially certain to
result in a constitutional violation in the form of
suicide, and the Sheriff did not consciously and
deliberately choose to disregard the risk (state of
mind).
Summary judgment was affirmed on appeal to
the Tenth Circuit Court of Appeals. Pet. App. 1a-9a.
The Tenth Circuit held “the Estate cannot establish
an underlying constitutional violation by any of the

3
jail’s officers because they did not have subjective
awareness of Ms. Rowell’s risk of suicide.” Id. at 5a.
The Tenth Circuit also held that “the Estate
cannot show state of mind, an essential element of a
municipal-liability claim[,]” Pet. App. 8a, because the
Estate failed to show “a pattern of conduct that
would establish actual notice of a substantially high
risk of suicide”, or, that this case involved the “rare
circumstances where the jail’s operating procedures
were so deficient, or the risk of the telephone cord
was so obvious, that it would be liable under § 1983
without proof of a pre-existing pattern of violations.”
Id. at 9a (internal quotation, citation omitted).
B.

Factual Background.

In February 2016, Catherine Rowell was fiftyeight years old. In a one-year period, Ms. Rowell was
held in custody at the Rio Blanco County Detention
Center (“Jail”) four times – in February 2015, August
2015, and two separate times in February 2016. Pet.
App. 3a; Answer Brief in Tenth Circuit (hereinafter,
“AB”), 3.
On February 12, 2016, Ms. Rowell was
arrested and taken to Jail for violation of a
restraining order entered for the protection of
Plaintiff-Petitioner Gary Heidel, Ms. Rowell’s
purported common-law husband. AB, 3; Pet. App. 2a,
3a, 12a-13a.
The Jail is located in Meeker, Colorado and

4
was a very small facility. 1 A total of eight to twelve
inmates were being housed in the Jail during Ms.
Rowell’s February 12-15, 2016 confinement.
A
minimum of two detention officers were on duty at all
times, for a ratio of only 4-6 inmates per officer. AB,
4; Pet. App. 13a.
The Jail was divided into four general
population pods, one of which was designated for
female inmates only. The female pod had a couple of
different cells with sleeping bunks and an adjacent
dayroom which were interconnected. The dayroom
had a sink, shower, toilet, counter with bench,
television, and a telephone with a braided cord
mounted on the wall above the sink. AB, 4; Pet. App.
13a-14a.
Anthony Mazzola was elected as Sheriff and
took office in January 2015. The Sheriff’s Office had
written policies in place which had been adopted in
2002. Sheriff Mazzola began working to update the
policies and procedures for the Jail after becoming
Sheriff. AB, 4; Pet. App. 19a.
The policies specify that “[a] medical screening
shall be done as a part of the booking procedure by
the Jail Deputy.” Under the policies and procedures,
individuals with obvious medical or mental health
issues were required to be medically cleared prior to
being allowed in the Jail. If an incoming inmate had
mental health issues, Jail staff contacted the mental
health organization in Meeker, and a representative
1

A new jail was being completed at the time of the incident and
the Sheriff moved into the new jail shortly after the incident.

5
would go to the Jail to conduct an evaluation. Jail
staff would also contact the organization if an inmate
asked to speak with that organization or appeared to
staff to be in crisis during their confinement. AB, 45; Pet. App. 15a-16a.
The Sheriff utilized a computerized booking
program at the Jail, which included a series of intake
questions and documented whether the individual
indicated if they had any medical issues, including
mental health. The Jail had a standard procedure
for screening inmates for suicide risk by asking the
medical and mental health questions on the list, by
observing their conduct, and taking further action
depending on the answer to the questions or the
conduct observed. AB, 5-6; Pet. App. 15a-16a.
Staff was trained that, as part of the booking
process they were to manually input onto the booking
form “no med issues” if none of the medical
conditions on the list of intake questions were
answered in the affirmative, or, “no comments” under
the officer observation section of the form if the
specified medical conditions were not observed, and
that is how it could be determined after the fact that
the questions were actually asked. All the Jail staff
had on-the-job training to ask the inmate if they were
suicidal and to look for any signs of suicidal
tendencies, and the suicide question was always
asked. AB, 6; Pet. App. 15a-16a.
Information on the “Medical Information –
Medical Detail” section of the booking report and
under the “Officer Visual Observation – Visual
Observation Notes” section of the report had to be

6
manually entered into the Jail’s computer booking
program. Manual entries were made under both
sections of Ms. Rowell’s Feb. 12, 2016 booking report.
AB, 6-7; Pet. App. 16a.
On February 12th, Deputy Cook, who booked
Ms. Rowell into Jail, asked her the series of medical
intake questions listed on the computer program.
These questions included whether Ms. Rowell was
taking any medications, was under a doctor’s care,
had recently been hospitalized, needed medical
attention, and “are you or have you been suicidal.”
Ms. Rowell answered “no” to all these questions. AB,
7; Pet. App. 15a.
Consequently, Deputy Cook manually input
“No Med Issues” under the Medical Information
category and “No Comments’ under the Officer Visual
Observation category. Even though some of the
questions were general, they would also elicit mental
health information, for example, if the inmate
responded that she was under the care of a
psychiatrist to the question of whether she was under
a doctor’s care. AB, 7; Pet. App. 15a-16a.
Deputy Cook was also the booking deputy for
Tina Gonzales, who was arrested at Gary Heidel’s
residence along with Ms. Rowell and was transported
to Jail with Ms. Rowell. Ms. Gonzales’ booking
report reflects that medical questions were also
asked of Ms. Gonzales. Ms. Gonzales was identified
as taking medication for bi-polar, manic-depressive,
and high anxiety conditions as well as asthma and
bronchitis. Ms. Gonzales bonded out shortly after
her booking that afternoon and so she was not kept

7
in custody in the female pod during February 12-15,
2016. AB, 8.
Deputy Cook had also processed Ms. Rowell’s
release two days earlier (on February 10th) at the
conclusion of her one-week confinement. Ms. Rowell
appeared to be acting the same to Deputy Cook on
February 12th when he booked her into the Jail as
she had upon her release on February 10th. Deputy
Cook was not surprised that Ms. Rowell did not have
any medical issues at the time of her booking on
February 12th because she did not have any medical
issues the previous week while she was in Jail. AB,
8; Pet. App. 13a.
While Ms. Rowell was being booked, she
answered questions properly and was cooperative.
During booking, Ms. Rowell did not exhibit any signs
of impairment from either alcohol or drugs, she did
not have red eyes, slurred speech, staggered walk, or
any other signs indicative of impairment. AB, 7; Pet.
App. 15a.
There was no evidence presented that Ms.
Rowell was addicted to drugs or experiencing
withdrawals at the time of her booking on February
12, 2016, or during her confinement the week prior to
this booking. AB, 13; Pet. App. 15a.
To the extent Ms. Rowell was isolated at the
Jail, it was because she was the only female being
housed during this period. At all times Ms. Rowell
was allowed to move between the dayroom and her
sleeping cell. AB, 6-7; Pet. App. 14a.

8
Ms. Rowell had been housed in the female-only
general population pod three prior times within the
preceding twelve months without incident, including
the week immediately prior to this incident. AB, 7;
Pet. App. 3a.
Sgt. Muxlow had previously worked as a patrol
deputy and had encountered Ms. Rowell in that
capacity. Sgt. Muxlow was working the evening
shifts (7:00 p.m. – 7:00 a.m.) on February 13th and
14th, and Ms. Rowell’s reserved demeanor was the
same during his shifts as when he had previously
encountered her as a patrol deputy. Sgt. Muxlow’s
observations of Ms. Rowell’s demeanor were also
consistent with Ms. Rowell’s common-law husband’s
description that Ms. Rowell was normally quiet and
not very talkative. AB, 9; Pet. App. 16a.
During one of Sgt. Muxlow’s night shifts Ms.
Rowell ate her dinner, but initially did not eat her
pie. Because inmates usually eat the dessert, Sgt.
Muxlow opened Ms. Rowell’s door to make sure she
was doing okay and to find out why she was not
eating her dessert. Ms. Rowell ended up eating her
pie after this interaction. AB,10.
Deputy Michael Largent 2 worked the night
shift on Saturday and Sunday (February 13th and
14th). Nothing stood out to Deputy Largent about
Ms. Rowell during his cell checks. Deputy Largent
indicated Ms. Rowell seemed like she was in decent
spirits, the same as she always was when she was
housed in the Jail. AB, 10.
2

Deputy Largent was not named as a defendant.

9
Deputy Murray worked the day shifts of
February 12-15, 2016. Deputy Murray had routine
conversations with Ms. Rowell such as how she was
doing, did she want something to eat, did she need a
blanket, did she want to go to the rec yard, things of
that nature. Deputy Murray noticed Ms. Rowell was
not eating a lot and asked her why she was not
eating, to which she responded she was not hungry.
AB, 10; Pet. App. 17a-18a.
Deputy Kilduff worked the day shifts on
February 13-15, 2016. Deputy Kilduff asked Ms.
Rowell if she wanted her one-hour of outside
recreation time and each day Ms. Rowell declined.
Ms. Rowell was confined in February, the daytime
temperature was in the 20’s, the outdoor recreation
area was just an empty yard without any exercise
equipment, and other inmates did not go outside for
exercise either.
Ms. Rowell declining outdoor
recreation time in sub-freezing temperatures was not
strange behavior. AB, 11; Pet. App. 18a-19a.
Ms. Rowell asked Deputy Kilduff on the
morning of February 15th why breakfast was not
being served, and he explained the inmates were
receiving brunch instead because the 15th was a
holiday (President’s Day). Ms. Rowell ate most of the
egg casserole provided at brunch along with her
cottage cheese and sweet bread. Ms. Rowell did not
eat the pears or potatoes. AB, 11; Pet. App. 18a.
At approximately 12:07 p.m. on February 15th,
Deputy Kilduff found Ms. Rowell asleep and he woke
her up to see if she wanted her outside recreation
time, to which she responded “No, thank you.” Ms.

10
Rowell was on her bunk in her sleeping cell during
this exchange, not in the dayroom. On previous days,
Deputy Kilduff had observed Ms. Rowell watching
television in the dayroom for part of the time. AB,
11-12; Pet. App. 20a.
The policies state that Jail checks were to be
performed every 60 minutes. Over the course of her
stay, Ms. Rowell was checked a total of 116 times
from the time of her booking on February 12th until
her death on February 15th, which equates to a cell
check on average every 6/10th of an hour. The Estate
contends that events such as delivering meals and
retrieving trays do not constitute a cell check because
it is not specifically denominated as a cell check on
the log. AB, 12; Pet. App. 3a.
Because of Ms. Rowell’s four confinements at
the Jail within an approximately one-year period,
Defendants were generally familiar with Ms. Rowell.
Ms. Rowell never complained of being suicidal, never
requested counseling, or gave any other indication
that she may wish to harm herself. Ms. Rowell’s
conduct during this particular confinement was no
different than her three prior confinements within
the previous year. AB, 12-14; Pet. App. 3a, 13a.
Independent from her confinement in Jail, Ms.
Rowell had never previously attempted to commit
suicide or been treated for suicidal tendencies. Ms.
Rowell was briefly treated for depression in 2013 as
part of her course of treatment for a stroke she had
suffered. All the individual Plaintiffs, who are Ms.
Rowell’s purported common-law husband and her
four adult children, were surprised that Ms. Rowell

11
had committed suicide. None of these individuals
had ever communicated any information or just
general concern to Defendants at any time about Ms.
Rowell’s mental or medical health. AB, 14.
Ms. Rowell was with Gary Heidel on the day
she got arrested and, despite the restraining order,
had been staying with Mr. Heidel from the time of
her release on February 10th to the time of her rearrest on February 12th. Mr. Heidel indicated the
two days between Ms. Rowell’s release and her arrest
were probably the best couple of days he and Ms.
Rowell had had since her stroke in 2013. Ms. Rowell
appeared normal to Mr. Heidel at the time she was
arrested on February 12th. AB, 14.
Only one other suicide has occurred at the Jail,
which happened in the early 1980’s or 90’s, and no
inmate had previously attempted to harm themself
with the braided telephone cord. An attempted
suicide in 2015 involved an inmate trying to drown
herself in the toilet. Jail staff had no information to
indicate that Ms. Rowell may be suicidal during this
confinement or that she would use the telephone cord
to harm herself. AB, 13.
REASONS FOR DENYING THE PETITION
The issue on appeal was whether petitioner
satisfied all elements of municipal liability.
Determining whether the holding in Kingsley v.
Hendrickson, 135 S. Ct. 2466 (2015) was so broad
that it should be applied outside of the Fourteenth
Amendment excessive force context and interjected
into the deliberate indifference to serious medical

12
needs context was recently reviewed by the Court in
the Strain petition, which was denied. And, even if it
were to be considered here, it still would not resolve
whether petitioner established the state of mind
element of a municipal liability claim – one of the two
elements petitioner failed to satisfy – even if adoption
of the standard and remand resulted in determining
Ms. Rowell’s constitutional rights were violated.
Petitioner’s disagreement with the Tenth
Circuit’s application of well-settled municipal
liability “state of mind” legal authority to the facts of
the case does not present a special and important
reason sufficient to trigger this Court’s review.
I.

THERE ARE NO SPECIAL AND
IMPORTANT REASONS TO CONSIDER
THIS PETITION.

Petitioner has not identified any special and
important reason that would justify consideration of
its petition. The petition should be denied.
A.

The Petition Is Duplicative Of A
Recently Denied Petition On The Exact
Same Issue And Does Not Present An
Independent Basis Justifying This
Court’s Review.

A petition for writ of certiorari was considered
in Strain v. Regalado, No. 20-1562, which was denied
on October 4, 2021. The predicate for the Strain
petition was to resolve a purported circuit split as to
whether the objective standard in excessive force
cases set forth in Kingsley v. Hendrickson, 135 S. Ct.

13
2466 (June 22, 2015) should be extended into the
Fourteenth Amendment deliberate indifference to
serious medical needs context. More specifically, the
question presented was:
Whether a pretrial detainee can prevail
against a jail official who disregarded an
obvious risk of serious harm or whether the
pretrial detainee must prove that the official
subjectively knew of and disregarded a serious
risk of harm.
The Strain petition was distributed for
conference on September 27, 2021, and denied on
October 4, 2021.
Both the present petition and the Strain
petition involve the claim that jail officials failed to
provide medical care to a pretrial detainee as
considered under the Fourteenth Amendment.
Strain involved the lack of physical medical care,
whereas the present matter involved the lack of
mental health care.
That distinction is wholly
irrelevant to whether the Kingsley objective standard
should be extended into the deliberate indifference to
serious medical needs arena and therefore does not
warrant consideration of this petition in lieu of
Strain.

14
B.

Similar To The Strain Petition Being
Denied, There Is No Special And
Important Reason To Consider This
Petition.

Petitioner’s “second question presented [is] to
correct the Tenth Circuit’s error.” (Petition, p 28)
This Court has noted that “our certiorari jurisdiction
is designed to serve purposes broader than the
correction of error in particular cases.” Watt v.
Alaska, 451 U.S. 259, 275 fn.5 (1981)(Stevens, J.,
concurring).
There is no special and important reason to
consider this petition in lieu of the Strain petition.
Resolution of a circuit split purportedly created by
Kingsley as to the standard for determination of
whether a constitutional violation occurred does not
resolve this appeal because the state of mind element
of municipal liability also was not proven and
petitioner has not elucidated a special and important
reason to consider the second question.
To establish municipal liability, the Estate was
required to “show (1) an official government policy or
custom, (2) that caused a constitutional injury, and
(3) requisite state of mind.” Pet. App. 4a (citing
Schneider v. City of Grand Junction Police Dep’t, 717
F.3d 760, 769 (10th Cir. 2013)).
The appeal involved whether the district
court’s holding was in error that the Estate failed to
establish all elements of municipal liability. The
district court held, which the Tenth Circuit affirmed,
that the Estate failed to demonstrate Ms. Rowell’s

15
constitutional rights were violated, and, even if they
were violated, the Estate failed to establish the state
of mind element of municipal liability.
So, even if the Kingsley objective standard is
extended into the Fourteenth Amendment deliberate
indifference to serious medical needs context, and, on
remand one or more of the individual Defendants are
determined to have violated Ms. Rowell’s
constitutional rights under that new standard, that
still does not disturb the judgment because the
Estate failed to establish the state of mind element of
municipal liability.
As to the state of mind element of municipal
liability, petitioner has not demonstrated that the
character of the reasons for granting certiorari
enumerated under U.S. Sup. Ct. Rule 10 are
implicated here.
Petitioner did not identify decisions of other
United States court of appeals on the same important
matter which are in conflict with the Tenth Circuit
Court of Appeals’ decision. There is not a conflict
among the circuits as to what constitutes the
elements of municipal liability generally, or analysis
of the state of mind element specifically.
The Tenth Circuit Court of Appeals did not
decide an important federal question in a way that
conflicts with a decision by a state court of last
resort, a Colorado supreme court decision, which is
the court of last resort in Colorado.
Colorado
Constitution, Art. VI, Section 1; C.R.S. § 13-1-111(1).

16
The Tenth Circuit Court of Appeals’ March 23,
2021 Order and Judgment (Pet. App. 1a-9a) did not
so far depart from the accepted and usual course of
judicial proceedings or sanction such a departure by
a lower court as to call for an exercise of this Court’s
supervisory power. The state of mind element was a
factual determination and both the district court and
the Tenth Circuit Court of Appeals applied wellsettled law to the specific facts of the case. No clear
and convincing showing has been made that the
factual decisions were not supported by the record, or
that the district court or Tenth Circuit misapplied
the applicable law to those facts.
The Tenth Circuit Court of Appeals did not
decide an important question of federal law that has
not been, but should be, settled by this Court. What
does or does not comprise municipal liability
generally, or state of mind specifically, is not
unsettled law. There is not a disparity among the
various circuits as to the meaning or application of
this settled authority. The present matter does not
raise a newly undecided aspect on this issue, rather,
the present matter simply involves petitioner’s
disgruntlement with factual determinations having
been decided against it.
Lastly, the Tenth Circuit Court of Appeals did
not decide an important federal question in a way
that conflicts with relevant decisions of this Court.

17
1)

The State Of Mind Cases Cited By
The Estate Do Not Establish A
Certiorari-Worthy Controversy.

The Tenth Circuit identified the legal
authority and analysis required to determine
whether the state of mind element of municipal
liability had been satisfied. Pet. App. 7a-8a. The
cases cited by petitioner do not establish authority
that is in conflict with the authority identified by the
Tenth Circuit. Rather, petitioner’s cases merely
represent application of the same well-settled
authority to different sets of facts. The existence of
different conclusions reached based on different sets
of facts is not a valid reason for triggering this
Court’s jurisdiction.
The Tenth Circuit cited Connick v. Thompson,
563 U.S. 51, 64 (2011), Schneider v. City of Grand
Junction Police Dep’t, 717 F.3d 760, 769 (10th Cir.
2013) and Barney v. Pulsipher, 143 F.3d 1299, 1307
(10th Cir. 1998) as legal authority as to what must be
proven to establish the state of mind element of a
municipal liability, official capacity claim. Pet. App.
7a-8a. The Tenth Circuit then applied the legal
authority to the specific facts of this case and
concurred with the district court that, under the
circumstances of this case, petitioner did not satisfy
the state of mind element of municipal liability.
Connick, 563 U.S. 51, involved a municipal
liability claim for failure to train the prosecutor’s
staff on exculpatory evidence disclosure obligations
under Brady v. Maryland, 373 U.S. 83 (1963).
Connick identified the requirement that a claimant

18
must prove the municipality was deliberately
indifferent, which “is a stringent standard of fault,
requiring proof that a municipal actor disregarded a
known or obvious consequence of his action.” Id.
Connick noted that a pattern of similar constitutional
violations is ordinarily necessary to demonstrate
deliberate indifference. Id. at 62.
Like the present matter, Connick held that the
claimant failed to establish a pattern of prior
constitutional violations, and further held that the
circumstances of the case did not fall within the
narrow range of circumstances in which proof of a
pattern of prior constitutional violations was not
necessary. Id. at 63-68. In the present matter, the
Tenth Circuit applied the same legal principles to a
different set of facts and reached a similar
conclusion.
Schneider, 717 F.3d 760, involved municipal
liability claims for a police officer accused of sexually
assaulting a woman. In the present matter, the
Tenth Circuit quoted the standard of proof identified
in Schneider which is required to establish the state
of mind element of municipal liability. Pet. App. 8a.
Like the present matter, the municipal liability claim
in Schneider was rejected due to a lack of evidence of
deliberate indifference. Id. at 773.
Barney, 143 F.3d 1299, involved claims of
sexual assault and conditions of confinement against
the sheriff in his official capacity. Barney detailed
the deliberate indifference standard necessary to
establish the state of mind element of a municipal
liability claim, Id. at 1307-08, which was similarly

19
detailed in the Tenth Circuit’s Mar. 23, 2021 Order
and Judgment. Pet. App. 7a-8a. Like the present
matter, in Barney no pattern of violations existed to
put the officials on notice. Id. at 1308. Also like the
present matter, in Barney it was concluded the facts
of the case did not fall within the narrow range of
circumstances justifying a finding of deliberate
indifference absent a pattern of violations. Id.
Petitioner argues that “as was cited to the
Tenth Circuit below, the courts addressing this legal
issue appear to have all reached the opposite
conclusion. Woodward, 368 F.3d at 929; Perry for
Brooks, 399 F. Supp. 3d at 882 n.15; accord J.K.J. v.
Polk, 960 F.3d 367, 381 (7th Cir. 2020) . . . .” 3 Pet.
27. First of all, the “courts addressing this legal
issue” only include two cases from the 7th Circuit
and a single district court case. More importantly,
petitioner’s argument makes clear that there is not a
split among the circuits as to the appropriate legal
standard for the state of mind element in a municipal
liability claim. Rather, these three other courts
simply reached different conclusions on their specific
set of facts than was reached in the present matter.
As set forth in Part I.B. above, petitioner’s argument
does not establish that any special and important
reason for granting certiorari are implicated.
Contrary to petitioner’s argument, the Tenth
Circuit distinguished the facts of Woodward, 368
F.3d 917, from the present matter. Pet. App. 7a-8a.
Woodward v. Corr. Med. Servs. of Ill., Inc., 368 F.3d 917 (7th
Cir. 2004); Perry v. City of St. Louis, 399 F. Supp. 3d 863 (E.D.
Mo. 2019).
3

20
Also contrary to petitioner’s argument, the
Tenth Circuit’s decision was not contrary to the
holding in Olsen v. Layton Hills Mall, 312 F.3d 1304
(10th Cir. 2002). Olsen involved consideration of
municipal liability as to two separate municipalities.
Id. at 1318-20. Based on the particular facts of that
case, Olsen concluded one municipality was not
deliberately indifferent whereas a question of fact
existed as to whether the other municipality was. In
reaching that conclusion, Olsen applied the same
deliberate indifference analysis as was utilized in the
present matter. Just because the Tenth Circuit
reached a different conclusion here based on the
unique facts of this case does not render its decision
contrary to Olsen. McBride v. Toledo Terminal R.
Co., 354 U.S. 517, 519 (1957)(Frankfurter, J.,
dissenting)(“This Court has said again and again
that a difference of opinion in weighing evidence is
not included among “special and important reasons’
for granting certiorari.”)
With petitioner having failed to establish a
basis for consideration of the propriety of the Tenth
Circuit affirming summary judgment on the state of
mind element of municipal liability, there also is no
special and important reason to consider adoption of
the Kingsley standard on the constitutional violation
element since summary judgment will stand
regardless. Lawrence v. Chater, 516 U.S. 163, 173-74
(1996)(respect for lower courts and the public’s
interest in finality of judgments dictate that the
Court’s authority to grant certiorari, vacate the
judgment, and remand for further review should be
used sparingly.)

21
II.

THE STANDARD FOR FOURTEENTH
AMENDMENT DELIBERATE
INDIFFERENCE TO AN INMATE’S
MEDICAL CARE IS A SUBJECTIVE
TEST, NOT OBJECTIVE.

Whether or not an objective standard or a
subjective standard should be applied in deliberate
indifference to an inmate’s health or safety cases was
addressed in Farmer v. Brennan, 511 U.S. 825, 837
(1994), in which it was concluded a subjective
standard is applicable.
(“We reject petitioner’s
invitation to adopt an objective test for deliberate
indifference.”) Kingsley did not purport to overturn
or supercede Farmer.
“[C]laims based on a jail suicide are considered
and treated as claims based on the failure of jail
officials to provide medical care for those in their
custody.” Barrie v. Grand County, 19 F.3d 862, 866
(10th Cir. 1997). For the Estate to substantiate Ms.
Rowell had a constitutional right to adequate medical
care, it must prove that Defendants were deliberately
indifferent to her serious medical needs. Farmer, 511
U.S. 825; Estate of Hocker v. Walsh, 22 F.3d 995, 998
(10th Cir. 1994).
Because none of the Defendants were medical
personnel, deliberate indifference only occurs if
Defendants delayed or prevented Ms. Rowell from
access to medical personnel capable of evaluating the
need for treatment. Sealock v. Colorado, 218 F.3d
1205, 1211 (10th Cir. 2000).

22
“[A] prison official cannot be found liable . . .
unless the official knows of and disregards an
excessive risk to inmate health or safety; the official
must both be aware of facts from which the inference
could be drawn that a substantial risk of serious
harm exists, and he must also draw the inference.”
Farmer, 511 U.S. at 837. The Tenth Circuit simply
followed the precedent of Farmer on the specific issue
at hand.
Contrary to petitioner’s argument, the holding
in Kingsley was not broad and did not purport to
depart from Farmer. By its express terms, the scope
of Kingsley was limited to a pretrial detainee’s
Fourteenth Amendment due process claim based on
excessive use of force. Kingsley, 135 S. Ct. at 2476.
The Kingsley court specifically declined to expand the
objective standard to apply to even Eighth
Amendment excessive force claims brought by
convicted prisoners. Id. There was no discussion,
much less holding, extending the Kingsley standard
into denial of medical care claims.
The panoply of reasons for the Court to decline
taking up this issue have already been fully
elucidated in the Strain petition, which was denied
October 4, 2021.
III.

THE ORDER BELOW WAS CORRECT.

In order to impose municipal liability, a
plaintiff must prove: (1) the existence of an official
government policy or custom (2) which caused the
constitutional injury, and (3) the policy or custom
was enacted or maintained with deliberate

23
indifference to an almost inevitable constitutional
injury (state of mind). Schneider v. City of Grand
Junction Police Dep’t, 717 F.3d 760, 770 (10th Cir.
2013).
The Sheriff was not liable because there was
no underlying violation of Ms. Rowell’s constitutional
rights. However, even if there was an underlying
constitutional violation, both the district court and
Tenth Circuit also concluded the Estate failed to
establish the state of mind element of municipal
liability.
A.

The Sheriff Was Not Deliberately
Indifferent To An Almost Inevitable
Constitutional Injury.

The Sheriff can be held responsible for a
constitutional violation only if a Sheriff’s policy or
custom caused the constitutional injury. Monell v.
Dep’t of Social Services, 436 U.S. 658 (1978).
To establish municipal liability, “rigorous
standards of culpability and causation must be
applied,” which requires a showing of deliberate
indifference.
Bd. of County Comm’rs of Bryan
County, Okl. v. Brown, 520 U.S. 397, 405 (1997). The
term “deliberate indifference” has a different
meaning in the context of municipal liability than in
the context of whether an individual committed a
constitutional violation. Barney v. Pulsipher, 143
F.3d 1299, 1307, n.5 (10th Cir. 1998).

24
To prove deliberate indifference in the
municipal liability context, the Estate was required
to establish the following:
The deliberate indifference standard may be
satisfied when the municipality has actual or
constructive notice that its action or failure to
act is substantially certain to result in a
constitutional violation, and it consciously or
deliberately chooses to disregard the risk of
harm. In most instances, notice can be
established by proving the existence of a
pattern of tortious conduct. In a narrow
range of circumstances, however, deliberate
indifference may be found absent a pattern of
unconstitutional behavior if a violation of
federal rights is a highly predictable or
plainly
obvious
consequence
of
a
municipality’s action or inaction.
Schneider, 717 F.3d at 771. “A pattern of similar
constitutional violations by untrained employees is
ordinarily necessary to demonstrate deliberate
indifference for purposes of failure to train.” Connick
v. Thompson, 563 U.S. 51, 62 (2011).
Although the knowledge of risk required for
establishing deliberate indifference has been modified
for unique settings such as sexual assault in prison,
this does not alter the clear guidance of cases
involving jail-suicide because “a substantial risk of
suicide may be impossible to discern unless the
particular inmate reveals indicia of that risk to prison
officials.” Cox v. Glanz, 800 F.3d 1231, 1251 n. 11
(10th Cir. 2015).

25
A substantial risk is well-known when the risk
is (1) longstanding; (2) pervasive; (3) welldocumented or expressly noted by the jail in the past;
and (4) the circumstances suggest that the jail had
been exposed to information concerning the risk and
thus must have known about it. Farmer v. Brennan,
511 U.S. at 842-43. There was no evidence that any
inmate had used a telephone cord in the Jail before to
harm themself, or others, and that it presented a
well-known substantial risk to Ms. Rowell’s safety.
As noted by the district court, the telephone cord is
analogous to items routinely present in jail such as
sheets and clothing. Pet. App. 39a-40a.
The evidence did not support the conclusion
that the Sheriff had actual or constructive notice that
its actions were substantially certain to result in a
constitutional violation.
The Jail had only
experienced one prior suicide, which was remote in
time (1980’s or 90’s), and did not involve an inmate
hanging themself with a telephone cord.
The
attempted suicide in 2015 involved an inmate trying
to drown herself in the toilet. So, the Sheriff did not
have notice that placing Ms. Rowell in a general
population cell in which she had access to a telephone
was substantially certain to result in Ms. Rowell
using the telephone cord to kill herself.
The Estate argued to the district court that the
Jail should have had more surveillance cameras
monitoring the inmates.
While the lack of a
surveillance camera may be evidence of the tort of
negligent design, a state remedy, it is not a
constitutional violation. Bame v. Iron County, 566
Fed. Appx. 731, 740 (10th Cir. 2014) (unpublished).

26
The Jail manual was not inadequate. As
required by the policies, Jail staff checked on Ms.
Rowell 116 times over the course of the
approximately seventy-two hour period of time from
when she was brought to Jail and when she died,
which equates to a cell check on average every 6/10th
of an hour. Acknowledging that the Estate disputed
the frequency of the checks, the district court
nonetheless held that “staff routinely checked on Ms.
Rowell”. Pet. App. 14a.
Defendants spoke to and interacted with Ms.
Rowell, asked how she was doing, whether she
needed anything such as blankets or wanted to go
outside to exercise, brought her meals, retrieved her
food tray. Jailors have no constitutional duty to
monitor inmates constantly. Bame, 566 Fed. Appx.
at 740. The failure to monitor Ms. Rowell as
frequently as argued by the Estate did not amount to
deliberate indifference. Id.
The manual had adequate protocols for taking
extra security measures for inmates who are suicidal.
However, under the circumstances of this case those
protocols were not triggered.
The Estate also argued to the district court
that the Jail should have employed medical staff to
conduct suicide evaluations. “Absent a constitutional
requirement that only licensed physicians or
psychiatrists may conduct suicide evaluations”, “and
we are aware of none”, “it cannot be said that the jail
was deliberately indifferent to the risk of [the
inmate’s] suicide”. Ernst v. Creek Cty. Pub. Facilities
Auth., 697 Fed. Appx. 931, 934 (10th Cir. 2017)

27
(unpublished). As discussed in Part III.B. below, Ms.
Rowell had no constitutional right to specialized
suicide screening protocols.
The evidence also did not establish that the
Sheriff engaged in a pattern of tortious conduct.
There was no evidence that there was a history of
Jail staff ignoring inmates’ needs for mental health
treatment in general, or suicide in particular. The
only instance of purported tortious conduct identified
by the Estate was the present matter.
Nor did The Sheriff consciously or deliberately
choose to disregard the harm. To disregard the
harm, the Sheriff would first have to be aware of a
substantial risk of harm. No evidence supporting
this predicate requirement was provided by the
Estate.
Even if, arguendo, evidence was presented of
the Sheriff’s awareness, the Estate presented no
evidence that the Sheriff consciously or deliberately
chose to disregard the risk. To the contrary, the
Sheriff had policies, procedures and training in place
for processing incoming inmates, for utilizing the
computerized program which included medical and
mental health and suicide questions which required
manually inputing inmate information, for regular
cell check requirements, for suicide-specific safety
protocols, for mental health evaluation and
counseling. The Sheriff’s conduct evidenced conscious
regard, not disregard.
This single instance does not denote a repeated
pattern of noncompliance such that it could be

28
considered a custom. The undisputed evidence was
that no one had previously utilized a telephone cord
to harm themself at the Jail, so a violation of federal
rights was not highly predictable or a plainly obvious
consequence.
Plaintiffs’ allegations for the state wrongful
death claims were also instructive. Nowhere in the
Second Amended Complaint did the Estate allege
that any of the Defendants’ actions were willful or
wanton or even reckless. Rather, the state claims
were based on negligence only. Aplt. App. Vol. II at
285-286, Part VI; Aplt. App. Vol. I at 19-37. Mere
negligence is insufficient to establish § 1983
deliberate indifference liability. Verdecia v. Adams,
327 F.3d 1171, 1177 (10th Cir. 2003).
B.

There Was No Constitutional Right To
Suicide Screening Or Prevention
Protocols.

In February 2016, there was no constitutional
right to suicide screening or prevention protocols.
“No decision of this Court establishes a right to the
proper
implementation
of
adequate
suicide
prevention protocols. No decision of this Court even
discusses suicide screening or prevention protocols.”
Taylor v. Barkes, 135 S. Ct. 2042, 2044 (2015) (per
curiam). Nor had the clear weight of authority
among the circuits established that such a right
exists. Id.; see also Cox, 800 F.3d at 1247 (“an
inmate’s right to proper prison suicide screening
procedures during booking – wasn’t clearly
established.”).

29
C.

Ms. Rowell Did Not Suffer A
Constitutional Injury.

Both the district court and the Tenth Circuit
concluded Ms. Rowell did not suffer a constitutional
injury.
“[A] prison official cannot be found liable . . .
unless the official knows of and disregards an
excessive risk to inmate health or safety; the official
must both be aware of facts from which the inference
could be drawn that a substantial risk of serious
harm exists, and he must also draw the inference.”
Farmer v. Brennan, 511 U.S. 825, 837 (1994).
If a city is sued based on its responsibility for a
police officer’s actions and it is concluded the officer
did not inflict a constitutional injury, then “it is
inconceivable that [the city] could be liable to [the
plaintiff].” City of Los Angeles v. Heller, 475 U.S.
796, 799 (1986); Hinton v. City of Elwood, 997 F.2d
774, 782 (10th Cir. 1993) (A municipality may not be
held liable where there was no underlying
constitutional violation by any of its officers).
1)

Defendants Were Not Deliberately
Indifferent To Ms. Rowell.

All individual claims were voluntarily
dismissed by the Estate during summary judgment,
except as to Sgt. Muxlow, who was also dismissed on
summary judgment. Nonetheless, the Estate argued
that the Sheriff is liable for the collective acts of the
Defendants. Even if the Estate’s argument was

30
assumed to be correct, it still does not evidence a
constitutional violation.
To establish deliberate indifference in a prison
suicide case, Plaintiffs must show “that the detainee
exhibited strong signs of suicidal tendencies, that the
jail officials had actual knowledge of, or were
willfully blind to, the specific risk that the detainee
in question would commit suicide and that the jail
officials then failed to take steps to address that
known, specific risk.” Estate of Hocker by Hocker v.
Walsh, 22 F.3d at 1000 (10th Cir. 1994). A jailer’s
knowledge is viewed under the totality of the
circumstances. Cox, 800 F.3d at 1253. When an
inmate’s observable symptoms are susceptible to a
number of interpretations, with suicide being one
possibility, a jailer is not deliberately indifferent
unless it is established that the inmate presented a
substantial risk of suicide. Id. at 1253-54.
Although a defendant’s knowledge of
substantial risk may be proven by evidence the risk
was obvious, “the threshold for obviousness is very
high.” Gaston v. Ploeger, 229 Fed. Appx. 702, 710
(10th Cir. 2007)(unpublished).
For example, “a
request to see a crisis counselor . . . is not sufficient
to put a defendant on notice that an inmate poses a
substantial and imminent risk of suicide.” Id.
2)

There Was No Historical Or Current
Evidence To Support A Finding Of
Deliberate Indifference.

There was no evidence that Ms. Rowell
exhibited suicidal ideation in any manner during her

31
three prior confinements within one year of this
incident, including the one-week confinement just
days before. Ms. Rowell was placed in the same
female general population pod with the same access
to the dayroom without incident in all three prior
confinements.
During the Feb. 12-15 confinement, there was
no evidence Ms. Rowell ever indicated she was
suicidal and no evidence that she asked for mental
health treatment or medical treatment of any nature.
Ms. Rowell was behaving in the same manner as
before and Defendants had no information which led
them to believe Ms. Rowell would harm herself on
this occasion.
Ms. Rowell was arrested, transported to Jail,
and processed at the same general time as another
female (Tina Gonzales). It is undisputed that the
booking deputy (Cook) went through the computer
questionnaire with Ms. Gonzales and specified
numerous medical issues identified by her. There
was no evidentiary support for the Estate’s argument
that the booking deputy failed to go through the
same process with Ms. Rowell, for whom the deputy
specifically noted on the booking form that there
were no med issues identified by Ms. Rowell or
observed by him. The fact that prior bookings had
noted high blood pressure and dentures, but did not
reflect that on the February 12th booking, is evidence
that prior forms were not simply copied and pasted.
Ms. Rowell was the only female being housed,
and there is no evidence of disciplinary, security or
medical reasons to confine Ms. Rowell to her sleeping

32
cell only or to place her in an isolation cell.
Defendants routinely performed cell checks, observed
and interacted with Ms. Rowell. On the day of her
death, at worst, there was an interval of
approximately an hour and fifty minutes between the
last contact with Ms. Rowell while she was still alive
and when she was discovered.
Ms. Rowell’s common law husband, Gary
Heidel, described Ms. Rowell as quiet and reserved.
The behavior observed by Defendants was consistent
with that description.
For the two-day period between Ms. Rowell’s
release on February 10th and her return to Jail on
February 12th, Mr. Heidel described their time
together as the best time they had had since Ms.
Rowell suffered a stroke three years earlier in 2013.
Ms. Rowell appeared normal to Mr. Heidel on the day
she was arrested (February 12th) and taken back to
Jail. So, the Estate’s argument that it was obvious
that Ms. Rowell was so despondent that she would
take her own life is inconsistent with the
observations of the individual that knew her the best.
There also was no factual basis for the Estate’s
argument that Ms. Rowell was despondent and
therefore suicidal because she was going through
withdrawals. There was no evidence that Ms. Rowell
was addicted to either alcohol or drugs in February
2016.
Deputy Cook’s observations during the
February 12 booking that Ms. Rowell did not exhibit
any signs of impairment from either alcohol or drugs,
she did not have red eyes, slurred speech, staggered
walk, or other signs indicative of impairment

33
contradicts the Estate’s argument. Similarly, there
was no evidence that Ms. Rowell exhibited
withdrawal symptoms at any time during her
confinement Feb. 12-15, or even the week previously
when she was confined.
Other than minimal treatment for depression
during Ms. Rowell’s treatment for her stroke in 2013,
Ms. Rowell had never been treated for depression or
for being suicidal. To a person, Ms. Rowell’s common
law husband and all four of her children were
surprised when they learned Ms. Rowell had
committed suicide. None of these individuals ever
provided any information to Defendants or other Jail
personnel that Ms. Rowell had a history of depression
and should be closely observed for suicidal
tendencies, because Ms. Rowell had no such history.
The Estate claimed without evidentiary support that
Defendants should have divined a mental health
condition of which no individual close to Ms. Rowell
was even aware.
Contrast Ms. Rowell’s circumstances with the
inmate in Cox, 800 F.3d 1231. There, the inmate
indicated that he felt paranoid, heard voices, saw
things that others do not see, said he felt nervous or
depressed in recent weeks, and was taking
medication for an emotional or mental health
problem. Jail employees were aware the inmate had
been treated for paranoid schizophrenia. The inmate
denied he was currently thinking about suicide. The
court in Cox noted that the inmate’s symptoms to
some extent were consistent with a risk of suicide,
but were also consistent with other conditions.
Under those circumstances, the court held the jail

34
staff was not deliberately indifferent. Pet. App. 28a 29a. The facts of the present matter were much more
attenuated and ambiguous than the circumstances
present in Cox, and Cox was cited as authority for
support of summary judgment. Pet. App. 28a-31a.
D.

Even Under The Kingsley Objective
Standard, There Was No Constitutional
Violation.

Even if, arguendo, Kingsley should be applied,
it still is unhelpful. Kingsley itself notes that even
when it comes to pretrial detainees, “liability for
negligently inflicted harm is categorically beneath
the threshold of constitutional due process.”
Kingsley, 135 S. Ct. at 2472. The district court
concluded that, at worst, this incident amounted to
no more than gross negligence and therefore it falls
beneath the threshold of constitutional due process.
With respect to excessive force, Kingsley
identified various factors which guide a court’s
consideration. Those factors include the requirement
that the conduct undertaken must have been done
purposely or knowingly and been objectively
unreasonable. Kingsley, 135 S. Ct. at 2473. The
objective standard requires that the “determination
must be made from the perspective of a reasonable
officer on the scene, including what the officer knew
at the time”, “from the [defendant officer’s]
perspective”, and “not with the 20/20 vision of
hindsight.” Kingsley, 135 S. Ct. at 2468, 2473, 2474.
The inmate must also show that the jailor was not
acting in good faith. Id. at 2474.

35
Consideration of the Kingsley factors, if they
were applicable, still supports the district court’s
dismissal. Inmates coming into the Jail were placed
in the general population pod which afforded them
access between their sleeping cell and an adjacent
dayroom where basic necessities of water, toilet and a
shower were provided along with having a place to
sit, watch television, and contact family, friends,
attorney or others. There was no reason to place an
inmate in an isolation cell and institute suicide
protocols unless there was information to indicate the
inmate may harm him or herself.
With all the information known by
Defendants, including Ms. Rowell’s history as well as
her then-conduct, the evidence did not support the
necessity for implementing suicide protocol with Ms.
Rowell. It simply was untenable to have an inmate
with no suicidal history or tendencies placed under
close observation 24-hours a day and this level of
observation is not constitutionally required under
those circumstances.
So, even if, arguendo, the Kingsley objective
standard was adopted by the Tenth Circuit,
Defendants’ conduct still did not rise to the level of
an unconstitutional deprivation.
E.

In A Jail Suicide Case, Knowledge Must
Be Based On A Specific Individual, Not
Knowledge Generally.

The Estate argues that knowledge for
deliberate indifference purposes can be predicated on
suicide in inmate populations generally and does not

36
require knowledge about a specific individual.
Contrary to the Estate’s argument, Tenth Circuit
precedent requires knowledge of suicide risk by a
specific inmate, not the inmate population in general.
“[I]rrespective of the alleged deficiencies in the
Jail’s suicide-screening protocols, in order for any
defendant, including Sheriff [Mazzola], to be found to
have acted with deliberate indifference, he needed
first to have knowledge that the specific inmate at
issue presented a substantial risk of suicide.” Cox,
800 F.3d at 1250. “[S]omething more than an
inmate’s gloomy affect is required to trigger a duty to
inquire whether [she] is feeling suicidal”. Id. at 1253
(internal quotation omitted). “[S]trange behavior
alone, without indications that that behavior has a
substantial likelihood of taking a suicidal turn, could
not give rise to deliberate indifference liability.” Id.
at 1253-54 (internal quotation omitted).
Like any other medical condition, jail staff can
only rely on the accuracy of the mental health
information provided to them by each inmate as well
as their observations of the inmate’s conduct to
ascertain whether mental health assistance is
required. Ms. Rowell had never been treated for
attempted suicide or suicide ideation, and had only
been minimally treated for depression as part of her
overall care for the stroke she suffered years prior to
her confinement. Ms. Rowell’s four adult children
had no idea Ms. Rowell was suicidal and each of the
children expressed shock that she had committed
suicide.

37
Without evidentiary support, petitioner argues
that Jail staff was aware that Ms. Rowell was having
problems in her relationship. To the contrary, Ms.
Rowell’s common law husband had no inkling that
Ms. Rowell was suicidal either, they had just spent
their best days together in years, and Ms. Rowell was
acting normally when she was arrested. There was
no evidence that Ms. Rowell suddenly became
suicidal in the short interval between her arrest and
her booking, even if it is assumed the medical
questionnaire was not administered to her.
Ms. Rowell was not an unknown individual to
jail staff. The undisputed evidence was that Ms.
Rowell was acting the same as she had acted during
her three prior confinements within the preceding
twelve months, including the week immediately
preceding her arrest on February 12th.
The facts of this case bolster the Tenth
Circuit’s holding that the specific individual must
show some definitive sign of suicidal tendency in
order to trigger a duty to act by staff. Otherwise,
according to petitioner’s reasoning every jail inmate
should be put in isolation on a suicide watch because
it’s theoretically possible that individual may
someday try to harm themself for the sole reason
that they are an inmate in a county jail. The
constitution does not support that reasoning.

38
CONCLUSION
The petition for writ of certiorari should be
denied.
Respectfully submitted,
JEFFREY L. DRISCOLL
Counsel of Record
WILLIAMS, TURNER & HOLMES, P.C.
744 HORIZON COURT, SUITE 115
GRAND JUNCTION, CO 81506
(970) 242-6262
jdriscoll@wth-law.com
COUNSEL FOR RESPONDENTS
OCTOBER 12, 2021

